IN THE SUPREME COURT OF THE UNITED STATES
___________
No. A-_____
___________
JOHN DOE, A/K/A CHEYENNE MOODY DAVIS, APPLICANT
v.
UNITED STATES OF AMERICA
___________
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
___________
Pursuant to Rules 13.5 and 30.2 of this Court, counsel for
Mr. John Doe respectfully requests a 60-day extension of time, to
and including July 15, 2019, within which to file a petition for
a writ of certiorari to review the judgment of the United States
Court of Appeals for the Fourth Circuit in this case.

The court

of appeals entered its judgment on February 15, 2019. App., infra,
1a.

Unless extended, the time for filing a petition for a writ of

certiorari will expire on May 16, 2019.

The jurisdiction of this

Court would be invoked under 28 U.S.C. § 1254(1).
1.

Applicant John Doe a/k/a Cheyenne Moody Davis was in-

dicted in the District of Maryland on various charges relating to
identity theft.

After a two-day trial, the judge instructed the

jury that the applicable standard of guilt was “beyond a reasonable
doubt,” but gave no further explanation of what that standard
meant.

Fewer than three hours into its deliberations, the jury

submitted a question to the Court, asking: “Can we have the proper

2

legal definition of ‘beyond a reasonable doubt’?”

The district

court refused to provide any clarification or explanation of the
standard, relying on the evenly split en banc decision of the
Fourth Circuit in United States v. Walton, 207 F.3d 694 (4th Cir.
2000), which holds that it is solely within the court’s discretion
“whether to acquiesce to a jury’s request and define reasonable
doubt.”

Mr. Doe objected, and the district court again refused.

The jury continued to deliberate for two days, until it found Mr.
Doe guilty on all counts.
4.

Applicant appealed pursuant to 28 U.S.C. § 1291, argu-

ing, inter alia, that the district court’s refusal to provide an
instruction on the meaning of the “beyond a reasonable doubt”
standard constituted reversible error.
firmed.

The court of appeals af-

App., infra, at 4a.

The court of appeals, relying on prior 4th Circuit precedent,
held that “district court[s] [are] not required to define reasonable doubt to the jury so long as the jury was instructed that the
defendant’s guilt must be proven beyond a reasonable doubt.”
at 4a.

Id.

The court of appeals recognized that this Court has yet to

rule on the issue, and that in lieu of such ruling, it is bound by
prior Fourth Circuit precedent.

Id.

at 4a (citing United States

v. Bullard, 645 F.3d 237, 246 (4th Cir. 2011)).
5.

Counsel for applicant respectfully requests a 60-day ex-

tension of time, to and including July 15, 2019, within which to
file a petition for a writ of certiorari.

Although undersigned

counsel’s firm represented Mr. Doe on appeal, undersigned counsel

3

did not represent applicant in those proceedings.

He accordingly

requires additional time to review the record and decisions below.
Undersigned counsel also has proximate deadlines in other
matters, including: (1) Atlantic Richfield Company v. Christian,
No. 17-1498, in which any supplemental briefs responding to the
Brief for the United States as Amicus Curiae are due on May 14;
(2) Scoville v. Securities and Exchange Commission, No. 18A1057,
in which the petition for certiorari is due on May 24; and (3)
United States v. Greebel, No. 18-2667 (2d Cir.), in which the reply
brief is also due on May 24.

In addition, undersigned counsel has

a long-scheduled family vacation from June 14-26, which would also
conflict with the due date if counsel were to request a 30-day
extension.
Additional time is therefore needed to prepare and print the
petition in this case.

Respectfully submitted.
JOHN S. WILLIAMS
Counsel of Record
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
May 3, 2019

